<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE NATIONAL SCIENCE FOUNDATION FOR FISCAL YEAR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                   AN OVERVIEW OF THE BUDGET PROPOSAL
                  FOR THE NATIONAL SCIENCE FOUNDATION
                          FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 22, 2016

                               __________

                           Serial No. 114-70

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-840 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
GARY PALMER, Alabama                 ERIC SWALWELL, California
RALPH LEE ABRAHAM, Louisiana         EDDIE BERNICE JOHNSON, Texas
DARIN LaHOOD, Illinois
LAMAR S. SMITH, Texas


















                            C O N T E N T S

                             March 22, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Daniel Lipinski, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written Statement............................................    18

                                Witness:

The Honorable France Cordova, Director, National Science 
  Foundation
    Oral Statement...............................................    20
    Written Statement............................................    23

Dr. Dan E. Arvizu, Chairman, National Science Board
    Oral Statement...............................................    35
    Written Statement............................................    37
Discussion.......................................................    43

             Appendix I: Answers to Post-Hearing Questions

The Honorable Cordova, Director, National Science Foundation 
  (NSF)..........................................................    54

Dr. Dan E. Arvizu, Chairman, National Science Board..............    65

            Appendix II: Additional Material for the Record


Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    72

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                  FOR THE NATIONAL SCIENCE FOUNDATION
                          FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 22, 2016

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:02 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Comstock. Good afternoon. The Committee on 
Science, Space, and Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``An Overview of the 
Budget Proposal for the National Science Foundation for Fiscal 
Year 2017.'' I now recognize myself for five minutes for an 
opening statement.
    As we discussed before the hearing, we may be called for 
votes shortly, so our apologies. We'll try to get in as much as 
we can before that.
    I would first like to thank our witnesses for appearing 
today to discuss the National Science Foundation's fiscal year 
2017 budget request and other Foundation issues.
    The 2017 discretionary budget request for NSF totals $7.56 
billion, an increase of approximately $100 million, or 1.3 
percent, over the fiscal year 2016 enacted level.
    NSF is the primary source of federal funding for non-
medical basic research and supports through 12,000 competitive 
grants a year over 377,000 scientists, engineers, educators and 
students across the country.
    [The prepared statement of Chairwoman Comstock follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairwoman Comstock. Actually, I may just yield to my 
colleague and I will see if I can--sorry for that. Thank you.
    Mr. Lipinski. As the Chairwoman recuperates there, I want 
to thank the Chairwoman and the Chair of the Committee for 
holding this hearing. Welcome to Dr. Cordova and Dr. Arvizu.
    The NSF is central to our mation's leadership in science 
and technology, and I think it's important that more people 
understand the critical role that NSF plays. NSF supports 
fundamental research across all fields of science and 
engineering, and that research serves as the foundation on 
which our knowledge of our own world and the worlds beyond is 
expanded, our innovation economy is built, and our quality of 
life is improved.
    Over time, NSF has become the primary source of support for 
basic research across many fields, including the biological 
sciences, the social and behavioral sciences, and computer 
science.
    The fiscal year 2017 budget request for NSF includes new 
mandatory budget authority. I like to think of myself as an 
optimist, but it's hard to imagine a scenario in which there is 
agreement anytime soon on new mandatory funding. I wish, 
therefore, that the Administration had found additional support 
in the discretionary budget for the Foundation. I hope that my 
colleagues on the Appropriations Committee, in making their own 
very difficult tradeoffs, will once again find a way to provide 
an increase for NSF.
    Having said that, I'd like to highlight a few programs and 
initiatives in the budget that stand out to me. I see that NSF 
is not proposing any major new cross-agency research 
initiatives in fiscal year 2017. However, the ongoing 
initiatives in Risk and Resilience; Innovations at the Nexus of 
Food, Energy, and Water Systems, known as INFEWS; Understanding 
the Brain; Secure and Trustworthy Cyberspace; and many other 
that are in there remain in the budget are essential 
investments, and I want to commend NSF for continuing to break 
down disciplinary barriers to address grand challenges for 
science and technology, and for our nation.
    In particular, I am glad to see the investments being made 
in the Innovation Corps program and in the Smart and Connected 
Communities Initiative. As the leading proponent of the I-Corps 
program from when NSF first created it, it's been a great--it's 
great to see that it's been a great success. With minimal NSF 
educational funding, many startups coming out of I-corps-
trained teams have already received venture capital funding, 
and I look forward to more innovation and jobs coming from 
graduates of the program. In addition, the White House 
announced at the August Demo Day the partnerships that the NSF 
I-Corps program created with several new agency partners 
including DHS and the Defense Department. This demonstrates 
that NSF's I-Corps program also works within the government. I 
hope this will help other agencies see what NSF has long known, 
that the I-Corps model dramatically helps in translating 
research into new technology and new jobs.
    Similarly with Smart and Connected Communities, we are 
seeing more and more the impact that connected devices have on 
our lives as well as the promise they hold for the future. The 
early examples that we have seen in transportation with 
connected and autonomous vehicles are just a small piece of 
what could be possible when we adopt a ``Smart Cities'' 
approach to integrating technology into traditionally 
disconnected devices. Cross-cutting research is needed to drive 
these changes, and I'm glad that NSF is taking a leadership 
role here.
    With respect to the Education and Human Resources 
Directorate, I am interested in the systems approach that Dr. 
Cordova is taking to broaden participation in STEM in the 
INCLUDES initiative, so I look forward to discussion and 
progress reports on that effort. I am especially pleased to see 
the increase for the Cybersecurity Scholarship for Service 
program. The shortage of a skilled cybersecurity workforce in 
both government and the private sector is well documented, and 
has significantly--and has significant consequences for our 
national and economic security. However, I do have concerns 
about the proposed discretionary budget cuts to the Informal 
STEM Learning Research program and the STEM-C Partnerships 
program, so I look forward to an explanation of the status of 
those programs.
    Finally, I anticipate that there will be some discussion 
today about prioritizing some fields of science over others. So 
let me conclude by quoting from our colleague, Chairman 
Culberson, Chairman of the Commerce, Justice, and Science 
Subcommittee of Appropriations. Following his own hearing last 
week with Dr. Cordova, in which he stated clearly that he does 
not want to appropriate by directorate at NSF, he said, ``I 
think that we should let NSF pick the most promising areas and 
give the agency the flexibility to pursue them.'' I strongly 
agree with Mr. Culberson on those points.
    Thank you again, and I look forward to hearing the 
testimony.
    [The prepared statement of Mr. Lipinski follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Chairwoman Comstock. Thank you, Mr. Lipinski, and given my 
limited--what this cold is doing to me, I'm going to yield now 
and recognize the Chairman of the full Committee, Mr. Smith.
    Chairman Smith. Thank you, Madam Chair, and let me welcome 
Dr. Cordova and Dr. Arvizu here as well.
    In the interest of time, because we're expecting votes to 
be called in five minutes, I'm going to ask unanimous consent 
that my opening statement be made a part of the record.
    I simply want to add also that I just had a good 
conversation with Dr. Cordova in my office, and how shall we 
say this euphemistically? We exchanged views on some of the 
questions that I intended to ask today, all except one, and 
perhaps if she could address that in her opening statement, 
then I will not need to ask questions later on, and that is, 
how is the National Science Foundation implementing the STEM 
Act and prioritizing computer science in its STEM Education 
Grants. I know she's familiar with that bill that passed, and I 
want to thank her for support of that legislation. I'm just 
curious how National Science Foundation is implementing that 
piece of legislation.
    And with that, I'll yield back in hopes that we can get 
underway before the votes come. Thank you, Madam Chair.
    [The prepared statement of Chairman Smith follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    Chairwoman Comstock. Thank you, Mr. Chairman, and now I'll 
introduce our witnesses and see how far I can get through.
    Our first witness today is the Honorable France Cordova, 
Director of the National Science Foundation. Dr. Cordova was 
sworn in as Director in March 2014. She is President Emerita of 
Purdue University, where she served as President from 2007 to 
2012. From 1993 to 1996, Cordova was Chief Scientist at NASA, 
and she is a recipient of NASA's highest honor, the 
Distinguished Service Medal. She has a B.A. from Stanford 
University and a Ph.D. in physics from the California Institute 
of Technology.
    The Honorable Dan Arvizu, our second witness, is the 
Chairman of the National Science Board. In 2004, he was 
appointed by President George W. Bush for a six-year term on 
the National Science Board. In 2010, he was reappointed to a 
second six-year term. In 2012, he was elected as Chairman of 
the NSB. He is the Director Emeritus of the Department of 
Energy's National Renewable Energy Laboratory, and he has a 
bachelor of science degree in mechanical engineering from New 
Mexico State University and a master of science degree and 
Ph.D. in mechanical engineering from Stanford.
    I now recognize Doctor--actually, first I will enter my 
statement for the record also. My apologies. But we'll move 
through here, and I now recognize Dr. Cordova for five minutes 
to present her testimony.

                 TESTIMONY OF THE HON. CORDOVA,

          DIRECTOR, NATIONAL SCIENCE FOUNDATION (NSF)

    Dr. Cordova. Thank you. Chairman Smith, Chairwoman 
Comstock, Ranking Member Lipinski, Congresswoman Bonamici, 
Congresswoman Esty, good afternoon.
    In my written testimony, I've addressed specific aspects of 
our fiscal year 2017 budget request. NSF believes that this 
budget would substantially further the progress of science.
    We like to say that NSF is where discoveries begin. 
Increasing the breadth and depth of knowledge that can come 
from specific exploration and discovery is the goal of NSF.
    The past year has been one of notable scientific 
discoveries from every domain supported by NSF. I only have 
time in my opening remarks to mention one such discovery. Just 
last month, scientists from the NSF-supported Laser 
Interferometer Gravitational Wave Observatory announced the 
first direct detection of a gravitational wave, a landmark 
discovery that reflects decades of investment and that opens a 
new window on the universe. I'd like to thank the Committee for 
holding a hearing on the topic of this discovery, and we 
appreciate Congress's recognition and support for this great 
experiment.
    We also like to say that NSF is where discoverers begin. 
Many times, scientists and engineers tells us that their first 
grant was from NSF. Other federal agencies tell us that they 
often fund projects which were first prototyped by NSF to 
advance an original basic finding into application.
    NOAA depends on NSF's funded NCAR for reliable numerical 
weather prediction. Just last week, NCAR mapped the expected 
transmission of the Zika virus in the United States, 
information that will be useful to NIH, CDC, and of course, the 
public.
    NASA missions sometimes have their genesis in discoveries 
first made with ground-based observations funded by the NSF. I 
think of exoplanets, for example.
    Many Nobel Prize winners were funded by NSF early in their 
careers, some like the former Secretary of Energy Steve Chu, 
and the founders of Google while they were graduate students. 
Thus, increasing the STEM workforce, ensuring that it is ready 
to take on the challenges of our increasingly technological 
society and making STEM careers accessible to the wealth of 
talent that this nation has to offer are also goals of NSF in 
its new INCLUDES initiative.
    NSF's budget after adjusting for inflation has increased 
very little since 2003 with an annual growth rate of less than 
one percent since then. In fact, since 2010, we've actually 
seen a slight decline in research funding in constant dollars.
    Yet in the same time period, the number of proposals has 
dramatically increased. The result is that the fraction of 
proposals that we can fund has decreased significantly. The 
funding rate was 30 percent in fiscal year 2000 and is just 
over 20 percent now.
    Of great concern to us is that the situation is more 
challenging for people who haven't previously received an NSF 
award including young investigators. For them, the funding rate 
has gone from 21 percent in fiscal year 2000 to 16 percent 
today.
    And for major center programs like the Science and 
Technology Centers, the figures also highlight the intense 
competition for funding. Fewer than two percent of the 
applications we receive can be funded.
    So imagine all the potential discovery science that is left 
unfunded. In fact, the amount of additional money it would take 
to fund all proposals rated very good to excellent in any given 
year is $4 billion, $4 billion of worthy research left on the 
cutting-room floor every year.
    When a young investigator submits a proposal and it is 
rated excellent but not funded, it can be an invitation to 
leave the field of science. We are not only losing discoveries; 
we're losing discoverers.
    Thus, our fiscal year 2017 budget request starts to correct 
the situation in order to accelerate the progress of U.S. 
science, and accelerate it we must. The United States currently 
ranks number 10 among all countries in research intensity. That 
is the ratio of R&D expanded versus GDP. If we're to retain our 
global leadership position, if we're to fully utilize the 
talent inherent in our citizens, if we're to continue to make a 
difference to our economy and our nation's security, we need to 
accelerate our investment.
    With an increase of $400 million requested in fiscal year 
2017, we can't solve the $4 billion deficit that we have in our 
funding rate but we can make a start. We would use the funds to 
focus on early investigators within several years of their 
Ph.D. We can give them an all-important start on careers in 
science and engineering.
    I'd also like to take a moment to note that in the last 
year, NSF has made great progress in improving our efforts to 
refine and explain our programs and processes in a transparent 
and accountable manner. I'd be happy to discuss our efforts 
further.
    With your continued support, NSF looks forward to 
supporting more discoverers and making more transformative 
discoveries.
    This concludes my testimony, Madam Chairwoman, and I'll be 
pleased to answer any questions. Thank you.
    [The prepared statement of Dr. Cordova follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    Chairwoman Comstock. Mr. Arvizu.

                TESTIMONY OF DR. DAN E. ARVIZU,

                CHAIRMAN, NATIONAL SCIENCE BOARD

    Dr. Arvizu. Chairman Smith and Chairwoman Comstock, Ranking 
Member Lipinski, and other Members of the Subcommittee, I 
appreciate the opportunity to speak with you in support of the 
National Science Foundation's fiscal year 2017 request.
    As NSF's governing body, one of the most important 
functions of the National Science Board is to identify future 
opportunities for the progress of science in the nation. NSB 
wants to ensure that we continue to support scientific and 
economic advances like those associated with NSF's leadership 
in developing the internet in the 1980s and 1990s, and more 
recently with nanotechnology. For the United States to remain 
the world leader in research and innovation, NSF must continue 
to push the frontiers of science, investing wisely without fear 
of failure.
    Seizing future opportunities requires a STEM-capable U.S. 
workforce and the same unwavering long-term commitment to 
scientific discovery that the United States has shown in the 
past half-century.
    A recent announcement by LIGO, for example, was only 
possible because of decades of work by the scientific 
community, NSF, Congress, and several Administrations along 
with overall a billion dollars in unflinching federal support. 
There are other such big scientific opportunities to pursue. 
The question is whether the United States is committed to 
leading the way.
    Information and computational science offer one such 
emerging opportunity. Advances in machine learning have 
combined with big data to give us an entirely new tool set 
creating areas of research and ability to solve problems that 
have long defied solution.
    Recently, neural networks and reinforcement learning, which 
mimic human decision making, enabled Google's Alpha Go program 
to beat legendary Go player four games to one. The impacts of 
machine learning are foreshadowed by South Korea's response, 
which is an $860-plus million artificial intelligence research 
program. This is in partnership with Samsung and LG and Hyundai 
going far beyond gaming and computer science.
    In the next decade, big data and empirical modeling will 
transform science much like calculus revolutionized physics and 
computers remade engineering. These tools will let researchers 
tackle heretofore elusive problems including questions in the 
social behavior and economic sciences that are among our 
hardest to crack. In the near future, we will be able to run 
simulations and make predictions about these complex systems.
    Let's consider how these tools are already transforming my 
own area of research, the electric power sector. Our 
electricity system is rigid, aging, and no longer able to meet 
our future needs. Fortunately, technology advances are 
providing the tools necessary to move beyond electricity as a 
commodity and into delivering services. This requires new 
investment in research to enable two-way power flow, new power 
electronics, a myriad of sensors and control points, new 
systems architectures built on layers of models and real-time 
feedback, simulations and predictions. Harnessing this 
complexity will make our future electric system reliable, 
secure, clean, and affordable.
    Predictable and increased investments in research is needed 
to capture the benefits of massive data acquisition, empirical 
modeling, data analytics, real-time feedback, and controls. As 
my written testimony details, NSF's fiscal year 2017 budget 
lays important groundwork to seize these opportunities.
    Now, having highlighted these opportunities, I now wish to 
call your attention to a significant near-term risk. NSF's 
ability to accomplish its mission starts with the health of its 
workforce and the organization, and our staff and critical 
infrastructure that they rely on are supported by the Agency 
Operation and Awards Management account, and recently the AOAM 
account has been about four percent of the overall budget even 
as the workload has increased significantly. In my 12 years on 
the Board, NSB Chairs have consistently testified that the 
account is under resourced. I fear that the consequences of the 
shortfall will soon be evident. In fiscal year 2017, NSB 
strongly supports full funding for the AOAM account.
    My testimony in highlighting both opportunities and risks 
underscores the seriousness with which the Board takes its 
responsibilities to provide strong governance of taxpayers' 
investments. In my written remarks, you'll find additional 
details on these activities.
    Just over 65 years ago, James Conant, the first Chair of 
the National Science Board, portrayed NSF as a bold new 
experiment. Noting the need for continued vision, patience, and 
sustained investment, he wrote, ``No one should expect to be 
able to assess in a short interval of time the value of the 
money spent on scientific investigations. Even in the field of 
applied science, research is in the nature of the long-term 
investment.'' As I conclude my final term on the Board, I am 
more convinced than ever that our long-term national investment 
in fundamental science is essential to our future health, 
security, and prosperity.
    My colleagues and I thank you for your support of this bold 
but essential request for advancing the endless frontier.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Arvizu follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    Chairwoman Comstock. Thank you, and I now recognize myself 
for five minutes for questions.
    Dr. Cordova, NSF's budget request calls for $70 million for 
the Cyber Corps Scholarship for Service program. That's 
certainly something this Committee has spent a lot of time on, 
on cyber, so we appreciate that, and it's to recruit and train 
the next generation of information security professionals. How 
many new cybersecurity professionals will this investment be 
able to train, and how does NSF work with industry to 
understand their cyber workforce needs and to make sure we can 
get people to come into this field knowing what the career path 
will be. We've heard about delays in getting security 
clearances on things. How do you work through all that and what 
do you expect we'll see?
    Dr. Cordova. Thank you, Chairwoman Comstock. I don't know 
all the details, and so we'll get back to you on some of them, 
but I do know that with the $20 million augmentation, we're 
going to especially focus on what I like to think of as the 
Reserve Corps, the people that go through the Cyber Corps 
program, and we're working closely with universities on 
providing a really quality curriculum so that they are well 
trained, and a lot of very prominent research universities, 
universities in general, have stepped up to this challenge and 
are doing so.
    We want to make sure that the alumni of the program and the 
people who do scholarship for service after they've graduated 
then can be used as a resource in following years to come back 
and engage as they're needed on security matters, and that 
means a different level of continuous training. It's the same 
as if you were a doctor and you were continuously training, or 
a legal professional, and so that's really the emphasis of the 
new $20 million.
    As far as the number of students currently being trained, I 
know we are matched so much by the private sector and by 
universities themselves, who are very interested in providing 
this curriculum, I just don't have a number that I can share 
with you. It's a big partnership, and it's really, really 
growing. There's like a tidal wave of people coming into 
computer science in general.
    Chairwoman Comstock. I'd also like to ask you about STEM 
education, which we've obviously been funding, and actually 
earlier this afternoon we were working on some of those issues 
with this Committee and with my colleague, Congresswoman Esty, 
and others on the Committee. So, you know, every year we are 
trying to place a larger emphasis on the subject, and you know, 
we still hear the frustrating statistics that we're falling 
behind worldwide.
    What have we learned from previous investments in STEM 
about what is really working and advancing? Is it getting kids 
at a younger age? You know, how do we, you know, keep the 
continuum going? What are the things that we're finding are, 
you know, most helpful?
    Dr. Cordova. That's a very big question. Would you mind if 
I just started with Chairman Smith's question with responding 
to that? Because that leads us right into your question with 
the STEM Education Act of 2015. That added computer science to 
the definition of STEM, so this ties to your previous question. 
We're implementing the legislation by ensuring that our STEM 
education programs are open to all fields of STEM including 
computer science. In addition, we've included some new goals in 
fiscal year 2017 including computer science for all, which 
partners with the Department of Education, and I visited with 
the Secretary of Education about this last week, and the 
private sector to ensure that all students in the nation have 
access to computer science education. So I hope, Chairman 
Smith, that that is a partial response to your question.
    On the larger question of what we're learning, we--NSF is 
always engaged in evaluation and assessment of its programs, 
and that applies as well to our STEM education programs. In 
fact, you will see a request in the fiscal year 2017 budget for 
more money for evaluation and assessment and more money for 
core research in STEM learning because we do want to learn from 
what we're investing in. The types of things--and a much longer 
response is deserved--but the types of things we're learning 
have to do with institutional commitment. They have to do with 
hands-on learning and ensuring that every student has an 
opportunity for that. They have to do with community 
participation and engaging in partnerships that go beyond the 
school involving parents. They have a lot to do with teacher 
training. That's just absolutely essential, and having two 
teachers in my own family, three if I count my spouse, that I 
believe that continually upping the skills in teacher training, 
especially for a new computer age, is very, very important.
    So all of these, we take what we learned and we implement 
new programs that make use of that learning. So some of the 
questions, and I know Mr. Lipinski alluded to that we'll get to 
later, have to do with programs that look on the ledger like 
they've gone down in funding or have stayed the same. Actually 
what we've learned from that program or others have caused us 
to institute new programs to make use of that knowledge, and so 
that's how NSF is progressing in utilizing what it's learning 
in education.
    Chairwoman Comstock. Okay. Thank you very much, and I now 
yield to Mr. Lipinski.
    Mr. Lipinski. Thank you. I want to start out by just 
mentioning--I know that Dr. Arvizu had mentioned social 
behavioral sciences and economics in the context of big data, 
so I don't want to let a hearing go by without me emphasizing 
the important of SBE. I'm glad that you did that, and I will 
leave my question maybe for the record on that. But it's always 
important to point out the importance of SBE and the critical 
questions that it can help us--help us address.
    Dr. Cordova, I'm interested in the Smart and Connected 
Communities initiative. Across our country, so-called smart 
cities are investing in technology to address challenges like 
reducing traffic congestion, fighting crime, and fostering 
economic growth. In 2015, the White House announced a new Smart 
Cities initiative to invest in federal research and technology 
collaborations to help more cities pursue implementation of 
internet of things and smart-cities technologies, and last 
month's PCAST report on technology and the future of cities 
helped to underscore the value of this research.
    I understand that NSF has long supported fundamental 
research that underlies Smart and Connected Communities. Can 
you talk further about some of this research and about NSF's 
contribution to National Smart Cities initiative?
    Dr. Cordova. We are doing a lot of work, especially in 
computer science but also engineering on Smart and Connected 
Cities and simulation and modeling. Some of the examples that 
Dr. Arvizu mentioned pertain in the area of energy efficiency. 
We actually call this initiative Smart Communities because in 
our view, it's larger than a city; it extends to regions, and 
they're all very different. And so we--you--this is truly a 
cross-disciplinary activity that will involve us all in looking 
at things like transportation and communications, definitely 
security, and more our risk and Resilience initiative also 
applies here and is connected with Smart and Connected Cities 
for how they become resilient against risk like, say, Hurricane 
Sandy and so forth.
    And so we are engaging the private sector in this. It's a 
very popular initiative, and I think especially with the tools 
that cyber--that computing offers us in doing modeling and 
optimizing what we already know, we can make a lot of headway, 
and then we can also identify weaknesses in the system where we 
don't respond well to crises whether it's, you know, traffic 
crises, police crises, and again, this is a place where social 
science also comes into the picture in Smart and Connected 
Communities, that we must take all the data that we are getting 
and ask our social scientists how to evaluate where we can make 
better inroads. And maybe Dr. Arvizu would like to----
    Dr. Arvizu. Yes, if I can just add to that, I think 
excellent response by Director Cordova. Obviously you mentioned 
the INFEWS program, which is a--at the nexus of several of the 
infrastructures that go along with energy, but energy and water 
and food, these are areas where these research capabilities 
actually can be actually more pronounced in terms of impact for 
our communities and for our cities to capture efficiencies that 
otherwise would go untapped.
    Mr. Lipinski. Thank you. In my remaining time, I just want 
to ask about the Advancing Informal STEM Education funding. 
Informal STEM ed is something that I believe is very important. 
It's the main source of funding for science museums and other 
informal providers to innovate, develop and test new models for 
informal STEM ed through all ages and all mediums. So I'm 
concerned about the funding cut. Is there any particular part 
of the informal STEM ed portfolio that you propose to scale 
back or eliminate in fiscal year 2017?
    Dr. Cordova. No, on the contrary. I too, Mr. Lipinski, are 
very--am very committed as our agency to advance informal STEM 
learning. Our fiscal year 2016 estimate was $62-1/2 million, 
and so is our fiscal year request, so we're not proposing to 
cut back at all.
    Mr. Lipinski. Now, well, I guess we will see what happens 
because of the issue of the mandatory----
    Dr. Cordova. Right.
    Mr. Lipinski. --funding which we don't really----
    Dr. Cordova. You are right to note that $7-1/2 million of 
the fiscal year 2017 request is on the mandatory side of the 
ledger, but we view our budget as a total ensemble of $500 
million that we think is necessary to make further progress in 
science and engineering. In fact, it's essential. And so we 
don't think of it as being stovepiped into one or the other, 
discretionary or mandatory, so when we make the request, it is 
with respect to $500 million request augmentation for this next 
fiscal year.
    Mr. Lipinski. Okay. I understand your commitment. I just 
wanted to make sure that I raised that--raised that issue.
    Dr. Cordova. Yes. Thank you.
    Mr. Lipinski. Thank you. I'll yield back.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Moolenaar for five minutes.
    Mr. Moolenaar. Thank you, Madam Chair.
    Dr. Cordova, thank you for being here, and Dr. Arvizu.
    Question for you, Dr. Cordova. Your budget request for NSF 
requests $512 million for clean energy research and Dr. 
Cordova, and my understanding is, that's about a 38 percent 
increase, and I guess two questions would be, are you 
encouraging collaboration between the appropriate offices 
within the NSF and the DOE, and how do you make sure that 
there's no duplication of funding with Department of Energy 
Office of Science when it comes to these kinds of projects?
    Dr. Cordova. Well, thank you for your question. In fact, 
I'll be with them this evening with the Department of Energy. 
We work very closely with Department of Energy, and my 
colleague here, Dr. Arvizu, until very recently headed one of 
the DOE laboratories, and this is his specialty is on clean 
energy.
    We're very pleased to be working in an interagency sense on 
this very important initiative. Where NSF comes in is on the 
very basic research on materials, for example, for rechargeable 
batteries, on floating wind turbines would be another example, 
on solar fuels, economical generation of hydrogen from water 
rather than methane, and on the new combination of organic and 
inorganic materials and what progress we can make with those. 
But if you'll allow Dr. Arvizu to comment, because this is his 
field?
    Dr. Arvizu. Yes. Thank you, Dr. Cordova, and I think as Dr. 
Cordova has already suggested, there's close coupling with the 
Department of Energy Office of Science and even the Applied 
Offices. The kind of the good news and bad news about energy 
research is it's target rich. There's a lot of things that can 
be done, and where I think the mission agencies, the Department 
of Energy, is very much focused on applications and how you 
take those essentially to the marketplace more quickly. There 
is plenty of room for revolutionary work that goes on at the 
fundamental level. Office of Science is focused on high-energy 
physics, basic energy research which relates to biology.
    The opportunity to do some really revolutionary high-risk 
high-rewards sorts of outcomes really are not funded so much in 
the Department of Energy, and I think it's left to our 
tremendous capabilities within the university community with 
other research labs to actually offer ways in which we can 
really change the trajectory and move the needle on new 
revolutionary outcomes that I think you could not do within the 
national programs of the Department of Energy.
    Mr. Moolenaar. And if I could ask you both also, how is the 
private sector involved in that? Can the private sector apply 
for grants in this area?
    Dr. Cordova. Would you like to start?
    Dr. Arvizu. So----
    Dr. Cordova. We do work in parallel with the private 
sector. We certainly--well, one thing we fund is SBIR grants, 
okay, and a number of those Small Business Innovative Research 
grants, and so some of those are focused in this area.
    We--in partnership with private, we fund Engineering 
Research Centers, ERCs. We have quite a number of those. And a 
few of those are specifically looking at clean energy either 
materials or applications of some kind, and there will be 
partners from the private sector that are also funding that. 
It's one of the requirements of those Engineering Research 
Centers that they have industry partnerships.
    Dr. Arvizu. Yes, and I think, you know, there's a wide 
spectrum that goes on that relates to energy and all kinds of 
forms of energy, and what we find is that the private sector 
primarily likes to work very close to the application and Dr. 
Cordova side. So in that respect, that's really more of the 
purview of the Department of Energy where they have many 
multiple partnerships requiring 50/50 cost share in most cases. 
If it's more fundamental work, even for them, they require less 
cost share from the private sector. Rarely does the private 
sector work in some of these areas I think that the National 
Science Foundation works in, although they do in fact have 
great opportunity and application again, depending on the 
nature of the technology. If it's software, if it's 
architectures, they're more likely to do, but things that 
require larger commitments for longer-term higher risk you find 
that the research labs in the private sector don't nearly 
address that part of the spectrum nearly as well as the Science 
Foundation does.
    Mr. Moolenaar. Okay. Thank you.
    Thank you, Madam Chair.
    Chairwoman Comstock. Thank you, and I now recognize Ms. 
Esty for five minutes.
    Ms. Esty. Thank you, Madam Chairwoman and Ranking Member 
Lipinski, for holding today's hearings, to Dr. Cordova and Dr. 
Arvizu, thank you so much for joining us.
    We've already discussed some of the issues I was going to 
flag so I'm going to jump in, Dr. Cordova, with you as we've 
discussed at length on STEM education. Could you talk a little 
bit about the scalability elements? You referenced just a few 
minutes ago how the National Science Foundation is trying to 
figure--has done a lot of research on what works and what 
doesn't, but clearly one of those issues is not only what is 
effective but how do we scale up? Could you talk about what the 
agency is doing on that issue?
    Dr. Cordova. Yeah. Well, thank you, because that is--that 
is one of the most important challenges that faces us, 
especially in our broadening participation initiatives, and by 
that I mean how do we include more women, underrepresented 
minorities, the disabled in this great field that all of us at 
NSF and our Board loves, and wish everybody could have the 
opportunity to learn more about science and engineering and ask 
themselves if I too could become a scientist.
    So that is really the basis that--I mean, you just really 
pinpointed what is the essential element of our INCLUDES 
initiative, so when I came to the agency and I saw--2 years ago 
now, celebrate my anniversary on the last day of this month, I 
saw the fine programs that we're doing in broadening 
participation programs like the LSAMP program for minority 
scholars, like the ADVANCE program for women at the 
universities, and so many more. All of them seemed very 
targeted to a specific group. They seemed localized. They 
didn't scale up, as you put it. And so the challenge if we're 
going to really move the needle is how do we do the scaling.
    There's--now, business manufacturing, it depends on it, 
right? You spend a million dollars developing a widget and then 
you want to pay just 10 cents for every next copy of it. All 
right. Well, we're not--in the social economic challenges that 
we face, we're not very good at scaling up best practices. We 
don't--we don't take everything that we've learned and examine 
it and say how can others utilize it, how do I communicate it, 
how do I engage others in using those models and adapting them 
for their particular region.
    And so we've put out a call now just as of the last 2 or 3 
weeks on our INCLUDES initiative which is--whose intention is 
to bring more people into science and engineering, especially 
those who have not been included, and the focus of this is to 
fund proposals that are truly innovative in a scaling sense, 
that take the best of what we've learned and translate it to a 
larger environment and do some innovative experiments. So we're 
going to fund a lot of things, maybe at first go 40 different 
pilot programs, see what works, and then we're going to down-
select to just a handful of the ones that seem like they've got 
a good goal, good metrics to get there, and that they really 
can make a difference and be replicated and fund those at a 
much higher amount.
    So that is our intention with this. We're on it. We too 
care about the scaling program challenge very much.
    Ms. Esty. Well, I want to thank you for that. You and I 
have discussed this at length, and I just have to note 10 days 
ago, I was in my district. I've gone to a lot of coding events, 
shared passion for including girls and children of color in 
these initiatives, and I went to one 10 days ago in my 
district, a hackathon, and it engaged young girls, and this was 
3rd grade to 8th grade, in which they were paired with social 
service organizations in their community for a full day, and 
they learned about the homeless shelter, the animal shelter, 
the food bank, and they met actually with executive directors 
to understand the mission of these organizations, designed an 
app in one day to promote these businesses, and it's some of 
the research that MIT frankly found when they took their CS 
glass and broadened it to have the objective be develop 
something that's socially relevant and important, and so I 
think having gone to so many of these as I know you have really 
saw a tremendous difference in seeing students being asked to 
engage on issues they care about and to learn about them as if 
they're co-equals with organizations and people in their own 
community and see themselves as being part of those practical 
problem solvers, so I think we need to make sure we're pushing 
to lower grade levels and encouraging those who have not been 
included to say you can help address issues in your own 
community.
    And I think oftentimes we start too high up and only look 
at the post-docs and even the undergrad levels, and if we don't 
get kids in the door, by the time they're in 8th grade they 
generally never get in.
    So again, thank you for your work, both of you. I 
appreciate it very much.
    Thank you, and I yield back.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Westerman for five minutes.
    Mr. Westerman. Thank you, Madam Chair.
    Dr. Cordova, Dr. Arvizu, thank you for being here today. It 
sounds like we just have votes.
    I just wanted to follow up, Dr. Arvizu, with the comment 
from the gentleman from Michigan or question in talking about 
renewable energy research. Secretary Moniz was here earlier 
today, and in all the discussions I've not heard any talk about 
this vast resource of biomass that we have here in our country. 
We had 10 million acres of forestland burn last year. If you go 
through all the conversions and calculations and estimates per 
acre, you come up with the equivalent on an energy basis of 
about 26 billion gallons of gasoline that went up in flames on 
our federal lands. That doesn't count all the other biomass 
that we have. So my question is, why aren't we focusing more on 
utilizing those biomass resources versus algae or corn ethanol 
or other activities to research and find better ways to use 
biomass in a drop-in liquid fuel.
    Dr. Arvizu. That's a great question, sir, and I think I'm a 
big fan of also using all of our renewable resources including 
biomass, especially those that we consider waste streams, you 
know, things that are kind of left over after we cultivate 
either ag or other types of crops, and I think there is still a 
lot of work to be done. I think one of the concerns that I 
believe we have is we have kind of an unequal approach to the 
way in which we fund basic research across the entire spectrum.
    So I think there is room for that. Now, being a former DOE 
person as opposed to a current DOE person, my own personal 
opinions about that are that there is a great deal of 
opportunity there to do continued research on taking 
essentially carbons, oxygens and hydrogen atoms and 
reconfiguring them for useful purposes such as high-density 
energy fuels, which I think is very possible.
    Mr. Westerman. And there was a significant increase in 
biofuels research in the budget I was looking at earlier but 
there was no mention of partnering with the Forest Service or 
any kind of woody biomass research in there, so I would just 
encourage you to please take a look at that and I think that 
could help us out on multiple levels.
    Dr. Cordova, quick question for you. In 2013, the President 
announced the BRAIN initiative, a multiagency effort with 
important, ambitious goals about bettering understanding the 
brain and finding treatments for brain disorders. Last year the 
NSF proposed a major ramp-up in funding for understanding brain 
research but nearly flat funding this year. I know in this 
Committee we passed out the READ Act, which has to do with 
learning disorders, dyslexia, which the research that's there 
shows that about 90 percent of learning disorders are 
associated with dyslexia, and there's been a lot of great 
research done at Yale on that, but where are we on the brain 
research and on the funding for the READ Act? I think it was 2-
1/2 million mandated that have to be spent on dyslexia 
research.
    Dr. Cordova. Right. Okay. And so on the READ Act, as you 
know, that is enacted in fiscal year 2017 but we're getting a 
head start on it. Well, first of all, we have been funding 
research on disabilities including dyslexia for some time, but 
on the specific Act, we're getting a head start by issuing a 
``dear colleague'' letter this year to get the community 
stimulated to start thinking about writing proposals that we 
can fund when the Act is--comes into force in fiscal year 2017. 
So we're committed to doing that, and as I said, it's been part 
of the fabric of NSF is to support research on disability for 
some time.
    On the brain, NSF has doubled its investments from 2012 to 
2016 from $71 million to $147 million, and I think you'd say 
that is quite a growth, and so we're taking this year, being a 
year budget constraints, to take a pause, assess whathave we 
learned from the brain research that we've been investing in 
and where are the new directions where NSF uniquely among all 
the agencies can then move forward in subsequent years. So 
we're very, very much committed to the brain, understanding the 
brain, and this again is an all-directorate effort. We have the 
social and behavioral sciences engaged, obviously the 
biological sciences, but also the physicists and engineers are 
engaged because what we need is better imaging techniques, 
improved technology.
    Mr. Westerman. Thank you.
    Chairwoman Comstock. Thank you, and I now recognize Ms. 
Bonamici. We're about 10 minutes out from a vote so we're----
    Ms. Bonamici. Thank you. Thank you, Madam Chair. I will try 
to be brief.
    Welcome back to the Committee. First I want to make a 
comment, and applaud you for your work on STEM research and 
education. As a member of the Education Committee as well as 
the Science Committee, it's something that I talk about and 
work on on a regular basis.
    You mentioned, Dr. Cordova, hands-on learning. That is 
something that the STEM to STEAM initiative has been involved 
with, with integrating arts and design into STEM learning. 
There are model STEAM schools now across the county, and I 
happen to have two of them in the district I'm honored to 
represent, and talk about engaged learners, and it is also a 
benefit because students who are involved in arts and crafts 
are also going to be more creative and innovative thinkers as 
they move through their education, and we're seeing more 
engaged students, so there's a bipartisan STEAM caucus, and I 
invite colleagues to join us on that. We've seen a lot of 
progress and hopefully we'll see a more innovative workforce as 
well.
    Dr. Cordova and Dr. Arvizu--is that correct? Last week I 
met with a constituent who works at Intel. She leads a team in 
social and behavioral product research, and she talked about 
how that research is so critical to Intel's ability to develop 
unique products for different markets and cultural specificity. 
So I wondered if you could discuss some examples of social and 
behavioral sciences leading to major breakthroughs, where has 
it made a difference, and how is SBE collaborating with other 
fields of science and engineering.
    And then I also wanted to ask you about the Geosciences 
Directorate. As someone who represents a district in Oregon 
where we have, you know, natural hazards like tsunami, 
earthquakes, landslides, flooding, that's critical research 
involved in many areas including but not limited to climate 
change. So Social and Behavioral Sciences and also provide us 
with a few of the budget highlights for the Geosciences, 
please.
    Dr. Cordova. Okay. A lot. Okay. First of all, since you 
started with STEAM, I'll just say that we're committed to any 
improvement in STEM learning including its incorporation of the 
arts, and in our informal STEM program, we do fund projects 
like EarSketch would be a very important one for disabled 
children to use the arts to learn more about STEM education.
    So on SBE, we have lots and lots of examples, and I'll be 
happy to submit them for the record of how important and 
relevant that they are. They are--the social and behavioral 
sciences are a part of every cross-disciplinary initiative that 
we have, and that alone shows their importance to everything we 
do because technological change comes along with a lot of 
questions that we have about how to best utilize that 
technology and incorporate it.
    One of my favorite recent examples has to do with the 
measurement and data linkage in integration that SBE research 
on the linkage of diverse sources of information is very 
important to the Department of Defense, which relies on us to 
help fund. It's the fusion of both hard and soft forms of data. 
And so they want to have the ability to fuse intelligence data 
with social media, mass media, and behavioral survey data 
because they believe it's critical to forming a more 
comprehensive situational awareness, and we've all seen 
examples of this worldwide, and that is really a social and 
behavioral application.
    Another, of course, is anything to do with cybersecurity. 
We all know that at least half, if not three-quarters of the 
problem, is the social and behavioral response to making us 
more secure.
    And the third thing that you asked about has to do with the 
Geosciences. We have there a number of initiatives that are all 
embraced under the rubric of risk and resilience, and that is 
how we respond, and again, including the social sciences, how 
we respond to hurricanes and tornados and earthquakes and 
landslides and any kind of natural or human-made disasters that 
we want to be able to identify risk better. We want to do 
modeling and simulation of how to respond to them, and we 
believe that lives can be--we can demonstrate that lives can be 
saved that way.
    And then we've made a couple of references, as has Dr. 
Arvizu, to our INFEWS initiative, our Innovation at the Nexus 
of Food, Water, and Energy, and this is very much a place where 
the Geosciences has a big role to play because it's all about 
the land and its uses. We had a biomass question here as far as 
energy is concerned and water, whether it's underground or 
above-ground, and the production of food, and that applies----
    Ms. Bonamici. I see my time has expired so----
    Dr. Cordova. --so much. Yeah.
    Ms. Bonamici. Thank you.
    Dr. Cordova. There's lots of examples we'll submit for the 
record.
    Chairwoman Comstock. No, and my apologies because we are 
under five minutes now for our vote, so if Mr. Tonko could 
submit his questions for the record?
    Mr. Tonko. I will, Chair. I just want to thank our two 
guests, Dr. Cordova and Dr. Arvizu, for the great advocacy that 
you have provided for climate change and the geosciences. There 
are some that would suggest if we ignore it, it'll just go 
away, but that doesn't happen, so I appreciate the advocacy, 
and we'll submit some of the questions that I have for the 
record, and thank you.
    Chairwoman Comstock. Thank you, and the record will remain 
open for two weeks for additional written comments and written 
questions from Members. We did check, and they wouldn't hold 
our vote, so my apology.
    The hearing is adjourned.
    [Whereupon, at 2:58 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                  


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
